IN THE SUPREME COURT OF THE UNITED STATES
DAVID P. MORAN — Petitioner
v
STATE OF FLORIDA — Respondent
PROOF OF SERVICE
I,

-'Sly
7

David

Patrick

Z-h<\

Moran,

, 20 ZA

do

swear

or

declare

that

on

this

date,

., as required by Supreme Court Rule 29(1) have C

served the enclosed PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first class postage prepaid.
The names and addresses of those served are as follows:
OFFICE OF THE ATTORNEY GENERAL 444 Seabreeze Boulevard, 5th Floor,
Daytona Beach, Florida 32118
OFFICE OF THE STATE ATTORNEY. Ninth Judicial Circuit, 415 North Orange
Avenue, Suite 300, Orlando, Florida 32801
Executed on this

dav of

Tylv
/

., 2020.

David Moran DC#X97428
Pro Se Litigant

